wl

C@OCKLE

Le ga l Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-234

LIBERTARIAN NATIONAL COMMITTEE, INC.,
Petitioner,

Vv.
FEDERAL ELECTION COMMISSION,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AS AMICUS CURIAE
SUPPORTING PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Ilya Shapiro
Counsel of Record
Trevor Burrus
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 20th day of September, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ Chi,
State of Nebraska : Le ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38626
 

Attorneys for Petitioner

Alan Gura Gura PLLC 703-835-9085
Counsel of Record 916 Prince Street
Suite 107

Alexandria, VA 22314

alan@gurapllc.com

Party name: Libertarian National Committee, Inc.

 

Attorneys for Respondent

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Federal Election Commission

 
